<html>
<title> - [H.A.S.C. No. 113-121] ADAPTING U.S. MISSILE DEFENSE FOR FUTURE THREATS: RUSSIA, CHINA AND MODERNIZING THE NATIONAL MISSILE DEFENSE ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-121]

                   ADAPTING U.S. MISSILE DEFENSE FOR

                     FUTURE THREATS: RUSSIA, CHINA

            AND MODERNIZING THE NATIONAL MISSILE DEFENSE ACT

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 23, 2014

                                     
[GRAPHIC] [TIFF OMITTED] 


                                      ______
 
                       U.S. GOVERNMENT PUBLISHING OFFICE 

89-514 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDRE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, July 23, 2014, Adapting U.S. Missile Defense for 
  Future Threats: Russia, China and Modernizing the National 
  Missile Defense Act............................................     1

Appendix:

Wednesday, July 23, 2014.........................................    27
                              ----------                              

                        WEDNESDAY, JULY 23, 2014
  ADAPTING U.S. MISSILE DEFENSE FOR FUTURE THREATS: RUSSIA, CHINA AND 
              MODERNIZING THE NATIONAL MISSILE DEFENSE ACT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Coyle, Philip E., Senior Science Fellow, Center for Arms Control 
  and Non-Proliferation..........................................     5
Joseph, Ambassador Robert G., Former Under Secretary of State for 
  Arms Control and International Security........................     3
Woolsey, Ambassador R. James, Jr., Chairman, Foundation for 
  Defense of Democracies.........................................     2

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim.............................................    33
    Coyle, Philip E..............................................    55
    Joseph, Ambassador Robert G..................................    44
    Rogers, Hon. Mike............................................    31
    Woolsey, Ambassador R. James, Jr.............................    35

Documents Submitted for the Record:

    CBO letter of July 21, 2014, on Ground-Based Midcourse 
      Defense program budgets....................................    71
    Chinese ministry of defense news release announcing land-
      based anti-missile test....................................    74

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    82
    Mr. Garamendi................................................    83
    Mr. Rogers...................................................    77
    
  
                ADAPTING U.S. MISSILE DEFENSE FOR FUTURE

THREATS: RUSSIA, CHINA AND MODERNIZING THE NATIONAL MISSILE DEFENSE ACT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Wednesday, July 23, 2014.
    The subcommittee met, pursuant to call, at 2:49 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. I call this hearing of the 
Strategic Forces Subcommittee to order. We are here today to 
discuss an issue of rising importance to the United States. 
According to the Missile Defense Agency, quote, ``there has 
been an increase of over 1,200 additional ballistic missiles 
over the last 5 years. The total of ballistic missiles outside 
the United States, the North Atlantic Treaty Organization, 
Russia and China has risen over 5,900. Hundreds of launchers 
and missiles are currently within the range of our deployed 
forces today,'' close quote. And as we know, Russia and China 
are both engaged in aggressive modernization programs pointing 
hundreds of missiles of all sizes and ranges at the U.S., its 
allies, and our deployed forces. That is why we are here today 
for this hearing titled, ``Adapting U.S. Missile Defense for 
Future Threats: Russia, China and Modernizing the NMD Act.''
    We have another of our panel of distinguished witnesses 
joining us today. First, we have Ambassador James Woolsey, Jr., 
Chairman, Foundation for Defense of Democracies; Ambassador 
Robert Joseph, former Under Secretary of State for Arms Control 
and International Security; and Mr. Philip Coyle, Senior 
Science Fellow, Center for Arms Control and Non-Proliferation.
    As usual, I will introduce my own statement for the record, 
and without objection, that is so ordered, and I will recognize 
the distinguished gentleman from Tennessee, who is going to 
take us all out for Memphis barbecue after Alabama wins the SEC 
[Southeastern Conference] this year. I yield to the ranking 
member.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 31.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman. Nearly everything you 
say is accurate except for that last part. Nashville barbecue 
is way better than Memphis anyway.
    I am honored that the witnesses are here. I apologize for 
the delay. I look forward to the testimony.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 33.]
    Mr. Rogers. Thank you, Mr. Cooper.
    I now recognize our distinguished panel of witnesses. If 
you would please summarize your prepared statements for not 
more than 5 minutes, and your full statement will be made a 
part of the record.
    First, we will start with you, Ambassador Woolsey. Thank 
you for being here with us.

   STATEMENT OF AMBASSADOR R. JAMES WOOLSEY, JR., CHAIRMAN, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Ambassador Woolsey. Thank you. It is an honor to be with 
you.
    Mr. Chairman, I wanted to say just a few words about 
electromagnetic pulse because it is a threat that is not really 
debated in the public much. It is known to specialists, but it 
has been highly classified until relatively recently. It is 
essentially the vulnerability of our infrastructure, and 
particularly our electric grid, to pulses that either could 
come from the sun, for example, Quebec's electric grid was 
nearly completely wiped out back in 1989 by a solar generation. 
But it can also occur as a result of a detonation of a 
relatively simple nuclear weapon up at low Earth orbit level a 
few tens of miles, and that detonation, by utilizing the 
fireball and gamma rays from a nuclear detonation, can be 
extremely destructive to our electric grid.
    We have a lot of remarks by Chinese and Russian specialists 
talking about the utilization of electromagnetic pulse. The 
Russians have bragged to us in private that they have been 
helping the North Koreans figure out how to use a simple 
nuclear weapon and a simple ballistic missile to attack the 
grid of the United States, and this possibility is not just 
theoretical. It is something that is well understood by 
physicists because the earth has been receiving shocks of this 
kind from the sun for hundreds of millions of years.
    So one of the things that we really need to do is move 
quickly to build resilience into our electric grid, and here we 
are talking really about a few dollars per person in cost. And 
at the same time, we need to figure out how to deal with the 
threat of utilization of nuclear weapons in very limited 
numbers by not only Russia or China, but a rogue state, such as 
North Korea or, after, I am afraid, probably just a few more 
months, Iran. This deserves the kind of attention that only 
this committee and its Senate counterpart, I think, could bring 
to this type of debate because there is a strong desire to 
avoid trouble and avoid needing to deal with something that 
might cost some money on the part of much of industry.
    My friend, who was the chairman of the ARPA-E, Eric Toone, 
the Advanced Research Project Agency for the Energy Department, 
2 years ago moved the numbers himself and reviewed them, and he 
said there is more R&D [research and development] annually by 
the American dog food industry than there is by those who are 
seeking to build resilience into our electric grid. Now I guess 
it is a good thing for us to have healthy dogs, but in any kind 
of balance of proportion of where R&D money ought to go, I 
would urge strongly the review of the threat to our electric 
grid from electromagnetic pulse, how easily that can be put 
together and what types of work on material and devices at 
modest cost could build the sort of things we need in order to 
avoid this, I think, extremely serious threat. Thank you.
    [The prepared statement of Ambassador Woolsey can be found 
in the Appendix on page 35.]
    Mr. Rogers. Thank you.
    Ambassador Joseph.

    STATEMENT OF AMBASSADOR ROBERT G. JOSEPH, FORMER UNDER 
 SECRETARY OF STATE FOR ARMS CONTROL AND INTERNATIONAL SECURITY

    Ambassador Joseph. Mr. Chairman, thank you for the 
invitation to testify today. I have submitted a prepared 
statement for the record, and in that statement, I address the 
questions that are before the committee. I contrast the 
fundamentally different approaches of the Bush and Obama 
administrations to the development and deployment of a limited 
missile defense system.
    At the program level, the Obama administration from the 
outset substantially reduced the funding for missile defense 
and particularly for those capabilities that were to provide 
for the protection of the American territory and population 
centers. Programs intended to keep pace with the threat were 
cancelled, such as work on fast interceptors, including boost 
phase capabilities, as well as the airborne laser that had 
destroyed both solid and liquid missiles in flight. The 
multiple kill vehicle designed to provide a counter to the 
anticipated deployment of countermeasures was ended without 
replacement, and even critical sensors were mothballed, 
including initially the Sea-Based X-Band Radar that provided 
the most effective precision tracking.
    At the policy level and again in very stark contrast to his 
predecessor, President Obama has repeatedly demonstrated a 
willingness to cut back on missile defenses in seeking other 
objectives, such as enticing Russia to negotiate offensive arms 
reductions. This was reflected in the 2009 decision to cancel a 
third site in Europe and again last year with the termination 
of the SM3-IIB [Standard Missile 3]. While U.S. strategic 
defenses have been reduced in numbers and capabilities for the 
future have been abandoned, the threat to the U.S. homeland has 
grown, not just from North Korea and Iran, but from Putin's 
Russia, which has embarked on a strategic build-up of offensive 
and missile defense capabilities reminiscent of the Soviet 
days.
    The consequences of downgrading U.S. defenses, the increase 
in the threats that we face, and the policy failures to deal 
with these threats have major implications for U.S. missile 
defenses. I will summarize very briefly six conclusions.
    One, we must restore the priority of homeland missile 
defense to keep pace with the qualitative and quantitative 
nature of the rogue state missile threat. Major budget cuts and 
multiple program cancellations have left us with an inadequate 
and obsolescing defense against missile attacks from states 
like North Korea.
    Two, current problems with the GMD [Ground-Based Midcourse 
Defense] system and, in particular, the kill vehicle, must be 
fixed. Last month's successful test marked progress in this 
area, but improved reliability of the system must be 
demonstrated through active testing and spiral improvements. 
The number of interceptors must be increased beyond the 14 
announced last March. These are interceptors that would already 
have been deployed under the Bush plan. Cancellation of the 
SM3-IIB program intended to field in Europe a counter to 
Iranian long-range missiles in the future makes additional GBI 
[Ground Based Interceptor] deployments at a third site in the 
United States essential.
    Three, the GMD system must also evolve with improved 
sensors, as well as with capabilities that can defeat 
countermeasures and provide greater cost efficiency for 
intercepting larger numbers of missiles. At-sea capabilities 
that can contribute to the defense of the U.S. homeland should 
be supported, recognizing the mobility and the cost advantages 
offered by Aegis-class ships.
    Four, the United States must reassess the role of missile 
defenses with Russia and China. Past calls for fielding a 
capability against accidental or unauthorized launches such as 
that proposed earlier by Senator Nunn are even more relevant 
today given the state of U.S. relations with Russia and China. 
We also should examine how defenses might contribute to 
deterrence of Russia and China. This is not a new concept but 
one that has been incorporated in past Presidential guidance of 
both Democrat and Republican administrations. While today's 
security setting is much different from that of the Cold War, 
Russia's increased reliance on its nuclear forces, and the 
greater prospect for a miscalculation with both Moscow and 
Beijing argue for a review of past strategic thinking.
    Five, we cannot defend against larger-scale missile attacks 
from Russia, or potentially China, in the same manner that we 
are defending against rogue states. What we can do is explore 
how non-kinetic approaches, such as directed energy, can be 
integrated into our BMD architecture. We should also explore 
the full potential of space for the deployment of sensors and 
as well as interceptors to meet future defense requirements by 
taking full advantage of advances in critically important 
areas, such as computing and lightweight materials.
    And, six, the way forward I have described will require 
additional funding in a time of budget austerity. The amount 
likely will be far less than the cuts imposed over the past 6 
years. Funding could also come from shifting resources back 
from theater programs to strategic defenses. The current 
imbalance with about $4 out of every $5 going to theater 
programs is simply out of sync with our defense requirements.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Joseph can be found 
in the Appendix on page 44.]
    Mr. Rogers. Thank you.
    And, Mr. Coyle, you are recognized.

STATEMENT OF PHILIP E. COYLE, SENIOR SCIENCE FELLOW, CENTER FOR 
               ARMS CONTROL AND NON-PROLIFERATION

    Mr. Coyle. Chairman Rogers, Ranking Member Cooper, and 
distinguished members of the Strategic Forces Subcommittee, I 
very much appreciate your invitation to appear before you today 
to support your study of adapting U.S. missile defense for 
future threats. In my opening remarks, I want to describe why 
it would be unwise for the United States to pursue a missile 
defense against the intercontinental ballistic missile forces 
of Russia and China. There are basically three important 
reasons.
    First, U.S. missile defenses, especially U.S. defenses 
against ICBMs [intercontinental ballistic missiles], can at 
best deal only with limited attacks, and even that goal remains 
a major technological challenge. All missile defense systems 
can be overwhelmed. All missile defense systems have 
limitations, and those limitations can be exploited by the 
offense. By definition, it is only if the attack is limited 
that the defense can have a hope of not being overwhelmed. If 
the enemy also employs countermeasures, such as stealth, radar 
jamming, decoys, and chaff, as Russia and China do, U.S. 
defenses are even more vulnerable. The technology is simply not 
in hand to deal with an all-out Russian or Chinese ICBM attack. 
The U.S. has experimented with many different ideas for decades 
hoping to find a way. A few examples are the nuclear-bomb 
pumped x-ray laser; Brilliant Pebbles, a constellation of 
perhaps as many as 1,000 orbiting interceptors; and the 
Safeguard ABM [anti-ballistic missile] system deployed in North 
Dakota that the U.S. Congress cancelled because Russian ICBMs 
could overwhelm it. These and other systems were cancelled as 
unworkable, ineffective, or too costly, as when Secretary of 
Defense Robert Gates ended the Airborne Laser program.
    The second reason is cost. In 2002, the Congressional 
Budget Office [CBO] estimated the cost of several different DOD 
[Department of Defense] missile defense programs, assuming they 
all would continue through 2025, as part of a layered missile 
defense system. The CBO estimated that a system of Ground-Based 
Interceptors, analogous to the current Ground-Based Midcourse 
system, would cost between $26 billion and $74 billion. A 
system of interceptors launched from ships, similar to the Navy 
Aegis system would cost $50 billion to $64 billion, and a 
space-based laser system would cost $80 billion to $100 
billion. In today's dollars, the 2002 CBO estimate for the 
space-based laser could be as high as $132 billion. CBO 
cautioned against adding all these numbers together because the 
systems might share some common elements such as early-warning 
satellite systems, and CBO did not estimate the cost of a full, 
layered system. Of course, the GMD system and the Navy Aegis 
system are ongoing today. The space-based laser program office 
was shut down in 2002 and its research transferred to the MDA 
[Missile Defense Agency] Laser Technologies Directorate. All of 
these systems were for a limited defense. CBO didn't estimate 
the cost of a massive system designed to stop all of Russia and 
China's ICBMs, as there was no such program in 2002.
    The third reason is strategic stability. If the U.S. had 
missile defenses that could handle ICBMs, the ICBM arsenals of 
Russia and China, a kind of Maginot Line against ICBMs, and if, 
unlike the Maginot Line, those defenses could not be defeated, 
it would be strategically destabilizing. Russia and China would 
need to respond with all manner of new forces, perhaps even 
more attacking missiles, perhaps extensive deployment of cruise 
missiles against which our ballistic missile defense systems 
are useless, or perhaps the deployment of large numbers of 
troops in regions that are currently stable and peaceful. Then 
our missile defenses would have upset the strategic balance and 
provoked new military responses from Russia and China.
    Of course, under such conditions, Russia would certainly 
not agree to further reductions in their strategic nuclear 
arsenals, as the U.S. and Russia have been doing under START 
[Strategic Arms Reduction Treaty], the Strategic Offensive 
Reductions Treaty, and New START. Russia might consider 
aggressive new U.S. missile defense programs as justification 
to withdraw from the agreements that have significantly reduced 
the threat from nuclear weapons.
    In a May 28 talk at the Atlantic Council, Vice Chairman of 
the Joint Chiefs of Staff, Admiral James Winnefeld, summarized 
why limited defenses are in the best U.S. interests. As you 
know, he said, ``we have told Russia and the world that we will 
not rely on missile defense for strategic deterrence of Russia 
because it would simply be too hard and too expensive and too 
strategically destabilizing to even try.'' Later, the Admiral 
reiterated this point saying, ``And let me be clear once again: 
It is not the policy of the United States to build a ballistic 
missile defense system to counter Russian ballistic missiles.''
    Mr. Chairman, that completes my opening remarks. I am happy 
to take your questions.
    [The prepared statement of Mr. Coyle can be found in the 
Appendix on page 55.]
    Mr. Rogers. Great. I thank all of you for those statements. 
I thank you for your preparation to be here. I know it takes a 
lot of effort to prepare for these hearings, and I do 
appreciate it.
    I will start with my questions. First, I would say, Mr. 
Joseph, you just heard Mr. Coyle's comments. I would love to 
hear your thoughts about those observations.
    Ambassador Joseph. Mr Chairman, I have heard the same 
talking points from missile defense critics for really the past 
30 years. Missile defense won't work. Missile defense is too 
expensive. Missile defense will start an arms race. Missile 
defense is destabilizing. These are the same arguments that 
were used to support adherence to the ABM Treaty for three 
decades, and this left us, they left the United States 
defenseless against not just missile threats from the Soviet 
Union, but also from emerging threats like North Korea. When 
the U.S. withdrew from the ABM Treaty, the sky didn't fall. 
There was no arms race. But what happened was missile defense 
critics refocused the same talking points on the Bush 
administration's missile defense plans. And, in fact, those 
talking points have been used against every missile defense 
undertaking that I am aware of.
    Last night, in preparation for this hearing, I Googled 
``Iron Dome'' and Mr. Coyle's name, and up pops an article from 
the New York Times from last March, entitled ``Weapons Experts 
Raise Doubts about Israel's Antimissile System.'' You guessed 
it. It is too expensive. It won't work, and it is a rush to 
failure. The talking points of the critics are not only sort of 
repetitive. They are also wrong. And in particular, the talking 
points that are often used that the Bush administration rushed 
to failure, that there wasn't adequate testing, in fact, and I 
have the statistics here, when President Bush made the decision 
to deploy in late 2002, seven intercept tests had been 
conducted, five of which were successful. Three additional 
successful flight tests had taken place of the booster to be 
deployed. During the Bush years, 7 of 10 intercept tests were 
successful, and the reasons for the failures of the other 3 
were identified and corrected.
    It is true that the initial approach to GMD did not follow 
the standard acquisition practices. This was a deliberate 
policy choice. It was deliberate because we had no defenses 
against the North Korean threat, and we needed to move forward, 
but we did so in a very deliberate and measured way, including 
with testing of the program.
    Mr. Rogers. Thank you. We deploy missile defense systems 
for anti-ship ballistic missiles from China. How do we explain 
or do you think it is reasonable for us to expect the American 
people to find that acceptable that we go to that extent for 
5,500 sailors, but yet we aren't willing to spend money to 
protect 5 million Americans in either Seattle or Los Angeles 
with missile defense capability? Do any of you understand why 
we are unwilling as a nation from a policy standpoint to deal 
with that risk? I open that to any one of you. Mr. Joseph.
    Ambassador Joseph. I have always found it difficult to 
explain things that don't make sense, and I don't think it 
makes sense to the American people.
    Mr. Rogers. And I would argue I don't think the American 
people even realize that we have the ICBM and SLBM [submarine-
launched ballistic missile] threats that are there and without 
adequate resources to protect us. This is another question for 
all the witnesses. We are deploying a cruise missile defense 
capability to protect the National Capital Region from cruise 
missiles, including, according to the commander of NORTHCOM 
[U.S. Northern Command], Russian cruise missiles. Does it make 
sense that we deploy cruise missile defenses to protect the 
Capital from Russian cruise missiles, but we do not deploy 
missile defenses to protect the American people against a 
Russian ballistic missile? Ambassador Woolsey.
    Ambassador Woolsey. Mr. Chairman, I don't think it makes 
any sense, and I think it makes even less sense given the 
devastating nature of what could be an electromagnetic pulse 
attack. A launch from a freighter off the coast of a simple 
Scud missile with a very primitive nuclear weapon on it to up 
30, 40, 50 miles above the East Coast would detonate, make 
possible a single detonation that could effectively destroy the 
East Coast grid. And if the electric grid is destroyed, the EMP 
Commission says that within 12 months of an EMP event, 
approximately two-thirds of the American population would 
likely perish from starvation, disease, and societal breakdown. 
Other experts estimate the likely loss to be closer to 90 
percent. We would be back, not in the 1980s pre-Web, but back 
in the 1880s, pre-electric grid, and very few of us have enough 
plow horses and water pump handles to live in the 19th century.
    It seems stunning that something like this can happen, but 
the electronics we have today are approximately a million times 
more sensitive to electromagnetic pulse than the electronics 
that were taken out in 1962 by the very last atmospheric tests 
before the Atmospheric Test Ban Treaty cut in, in 1962. Both 
the Soviets and we were stunned by the degree of destruction 
many hundreds of miles away of even the primitive electronics 
of the time. But now at a million times more sensitive and a 
million times more vulnerable, the control systems of our 
electric grid are vulnerable to destruction by a single nuclear 
detonation up 40, 50, 60 miles into the atmosphere. It can 
occur by a, as I said, a Scud missile being launched from a 
freighter off the coast. It could take place by what the 
Soviets call a fractional orbital bombardment system, a FOBS, 
which essentially means a satellite, in this case containing a 
nuclear weapon, that is launched to the south, instead of to 
the north. To the south, we have virtually no observation, 
virtually no radars, virtually no sensors, essentially nothing. 
If they launch to the south and the satellite comes around the 
earth over the south pole and then up into the Northern 
Hemisphere and detonates, it could have the effect of exactly 
what was described by the EMP Commission report that I just 
read.
    Mr. Rogers. And does that commission report indicate that 
our public utilities have not taken appropriate steps to harden 
their grid?
    Ambassador Woolsey. They are--Mr. Chairman, I've got to be 
careful how I phrase this. They are as ineffective and as 
uncommitted to making those improvements as any action by any 
American industrial or business group that I have ever been 
acquainted with or seen. They will not admit that this is a 
problem. They invent numbers. It is a trade association. NERC 
[North American Electric Reliability Corporation], the National 
Electrical Resources Corporation, North American Electric 
Resilience--not Resilience. I will get the acronym right in a 
second, but it is essentially the trade association for 
industry. And they have had people in NERC, including one who 
was head of NERC at one point, who has taken these issues 
responsibly and tried to work on them. But generally speaking, 
they do not do anything that would help the country deal with 
this problem. And if you look at how much it would cost, you 
are talking from the commission report, about $7 per American 
to build resilience into the grid. That is one really, really 
nice cup of coffee in the morning.
    Mr. Rogers. Thank you very much.
    My time is expired.
    I now recognize the ranking member for any questions he may 
have.
    Mr. Cooper. Thank you, Mr. Chairman.
    I was just wondering sitting here listening to the 
testimony if we need to have another hearing to allow some of 
these folks to give the counterarguments because some pretty 
serious charges have been made here, including inventing 
numbers and things like that. So, I think that might be a fair 
hearing to consider. I was also wondering if Mr. Coyle would 
like a chance to respond to Ambassador Joseph, because he made 
some pretty serious charges against you. If you would like to 
respond, I want to give you that opportunity at least.
    Mr. Coyle. Well, I don't know what Ambassador Joseph found 
when he was Googling me, so I am not sure what he was referring 
to. We also talked for a minute there about cruise missiles as 
a threat, and I could just add to that, that the effort we are 
putting into cruise missile defenses is currently way, way less 
and more primitive than what we are doing for ballistic 
missiles. And some analysts regard a cruise missile threat as 
more likely because, as was referred earlier, a nation with not 
a lot of sophistication could put a cruise missile on some kind 
of a vessel and get close to our shores and launch that way. So 
the balance between the effort we put into cruise missile 
defenses and ballistic missile defenses, I think is a 
legitimate thing to be looked at.
    Mr. Cooper. Ambassador Woolsey made some very interesting 
points about electromagnetic pulse. We used to have a colleague 
here, Roscoe Bartlett, who rode this hobby-horse for some time, 
and I do not want to in any way underestimate the threat, but I 
do suggest that it is probably better to build coalitions than 
to champion causes individually. I know Ambassador Woolsey has 
been on the Board of Trustees of Stanford University, of many 
other distinguished places, think tank for Booz Hamilton. Have 
you had any success persuading your colleagues on those boards 
about the EMP threat?
    Ambassador Woolsey. I was on the Stanford board back some 
years ago, Congressman. I have been interested in this issue 
really for the last couple of years and have been doing a good 
deal of reading and work on it in that amount of time, but if 
we go back to either the time I was at Booz Allen, which began 
shortly after 9/11 for a few years, or way back when I was a 
Stanford trustee, I was not involved in this particular set of 
issues, EMP, at those times, but I would be delighted to work 
with anybody who wants to work with me on this. I think it is 
an extremely important issue.
    Mr. Cooper. I was just thinking in terms of persuading 
people that it is a genuine threat, you are a relative newcomer 
to the issue. You served in and out of government for many, 
many years. Did you just suddenly become aware of this?
    Ambassador Woolsey. Not suddenly. I suppose 2 to 3 years 
ago, I began to develop a serious interest in it, having done 
some reading that piqued my interest.
    Mr. Cooper. And the chief barrier to persuasion with other 
people is?
    Ambassador Woolsey. I think a lot of it is that people have 
a very hard time admitting to themselves that it could be as 
awful as what I have described. We all like to have manageable 
problems. There is a sense of success in being able to see 
something that is difficult to do and then succeeding against 
it. Electromagnetic pulse is very, very challenging. It makes 
most of our other dilemmas in the world I think look 
comparatively straightforward by comparison. And I think that 
we need to step up to the fact that although defending against 
the ballistic missiles that would set off EMP is extremely 
difficult, we might well be able to build resilience into our 
electric grid relatively quickly and relatively affordably if 
we could get our country organized to deal with it.
    Part of the problem is that the electric grid has FERC 
[Federal Energy Regulatory Commission]. It has NERC. It has 
Department of Energy. It has electricity commissions in the 
individual States. It is a situation where there are lots and 
lots of people dashing off in all different directions in terms 
of managing the grid. And to pull together and have a coherent 
approach is technically possible, I think, but 
organizationally, it is a really stunning challenge.
    Mr. Cooper. It is my understanding that our former 
colleague, Roscoe Bartlett, is living largely off the grid and 
has hardened his network so that he is prepared. Are you 
prepared for this threat?
    Ambassador Woolsey. Not completely, but I do have solar 
panels on my house, and I have various improvements like that, 
geothermal heat pump and so forth, that would make me partially 
grid-resilient I guess.
    Mr. Cooper. Thank you, Mr. Chairman.
    I see a number of our colleagues are here.
    I yield back the balance of my time.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes my friend and colleague from 
Alabama, Mr. Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    This question is for all the witnesses. In 2009, the 
administration sent Poland a Patriot battery with no missile 
interceptors. The Poles called this deployment a potted plant. 
Presumably this was done to attempt to mitigate Russian 
concerns. What is the damage done to our alliances when we make 
such nondeployment deployments?
    Mr. Coyle. I don't know why that decision was made the way 
it was made. I just can't comment.
    Ambassador Joseph. Sir, I think there is a pattern of these 
types of decisions, at least that I have discerned in our 
foreign policy over the last few years. We don't back up what 
we say. We don't impose consequences for red lines that are 
established and then crossed, and I think the consequence is an 
erosion of the confidence of our allies in the United States 
and a view on the part of our adversaries that they have little 
to fear from the United States.
    Mr. Brooks. Ambassador Woolsey, do you have anything to 
add? You don't have to.
    Ambassador Woolsey. I think Bob summed it up very well.
    Mr. Brooks. This one is also to all witnesses. Last week 
this subcommittee held a hearing on Russia's violation of the 
INF [Intermediate-Range Nuclear Forces] Treaty. What are the 
implications of the administration's refusal to provide the 
annually required report and to finally, years overdue, confirm 
that Russia is in violation of that treaty? What do our allies 
take away from this meekness, and how about Russia and Putin?
    Ambassador Woolsey. Congressman, I have not spent much time 
on the INF Treaty, but I was the head of delegation and chief 
negotiator for the Conventional Forces in Europe Treaty, which 
Mr. Putin has also walked away from. It is a treaty that, among 
other things, not only locked in the deployments country by 
country that ended the Cold War, but when it was negotiated in 
1989, 1990, 1991, it had a provision that prohibited any 
country from placing troops on the land of another without 
formal written permission, so what Mr. Putin has done in 
Georgia and what he has done in Ukraine and what he may well be 
doing in other parts of Central and Eastern Europe are clearly 
in violation of that treaty, and that is why he walked away 
from it, just as he walked away from the INF Treaty. He will 
basically walk away from whatever treaty limits Russia in any 
way that he doesn't want.
    Ambassador Joseph. I think President Obama said it best: 
``All arms control commitments must be scrupulously observed, 
and if they are not, there must be consequences.'' The fact 
that it appears that Russia is in clear material breach, I 
would argue, of this INF Treaty and that there are no 
consequences, I think undermines not just the confidence in the 
United States, but the whole arms control process. Because if 
you can't depend on other countries observing and if they don't 
observe that there are consequences, what good is the process? 
What good are arms control agreements? They are certainly not 
going to be something that you want to pin your security on.
    Mr. Coyle. Mr. Brooks, I am aware that there is a debate 
about whether or not this is a violation. I have looked at it 
enough myself to know that it certainly is getting close, if it 
is not. But I think part of the issue here has been whether or 
not the administration wants to treat it as a violation, and 
that involves statecraft and other things that I am not an 
expert about.
    Mr. Brooks. Well, just quickly, one last question. In view 
of the issues associated with Russia and the United States and 
the treaties that we have with Russia and particularly the INF 
and apparent violation of that treaty by Russia, what weight do 
you give to any treaties between the United States and Russia?
    Ambassador Woolsey. I think only treaties that the Russian 
leader, particularly this Russian leader, thinks are in 
Russia's interests at any one point of time are going to be 
binding on Russia. He does not have a sense at all of the rule 
of law, of the standards to which he is sometimes held by 
statements at the United Nations and the rest. He is a KGB 
officer, and not to put too fine a point on it, as far as I am 
concerned, he is a thug. He has no interest in, no sense of 
obligation to treaties and the rule of law. He will observe one 
or more for some time if he thinks that it is in his interest 
and he is not ready to violate them in order to move Russia's 
interest as he perceives it forward by some other means. But he 
simply lacks, as far as I am concerned, the sense of obligation 
that most Western leaders and certainly American leaders have 
toward a treaty that one has signed and has been approved by 
our Senate, and therefore, is something we should observe. He 
doesn't think that way as far as I am concerned.
    Mr. Rogers. Gentleman's time is expired.
    The chair now recognizes the gentleman from Georgia, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you. Ambassador Joseph, you just 
mentioned about consequences for Russia's violation of which 
treaty?
    Ambassador Joseph. The INF Treaty from 1987.
    Mr. Johnson. And what consequences would you recommend and 
for what violations of that treaty?
    Ambassador Joseph. Well, the violation that has been I know 
the subject of consideration by this subcommittee has been the 
development of a ground-launched cruise missile that has a 
range that is banned by this treaty, a range between 500 and 
5,500 kilometers. This is the one treaty that outlawed an 
entire class of missiles, of ballistic missiles and cruise 
missiles within that range. It applies only to the United 
States and to Russia, which is what the Russians are arguing: 
Why should we live with this restriction when other countries, 
such as China, don't have this same restriction? But it, I 
think, shows the cynicism of Russia's attitude toward arms 
control in the sense that, instead of legally withdrawing from 
this treaty, as we did under the ABM Treaty, we did it 
according to the provisions of the treaty, they simply violate 
it because they don't want to pay the political price or what 
they see may be a political price. It shows the contempt that 
they have for the rule of law, as Jim just mentioned in this 
context.
    What should we do about it? Well, if you go back to the 
history of INF, the reason we were deploying INF missiles was 
that the Soviet Union had been deploying SS-20 missiles by the 
hundreds. We deployed 464, were on course of deploying 464. The 
agreement was made that we would eliminate all of these 
weapons. The question was, how do we ensure a credible 
deterrent with our European partners in the context of the 
Soviet Union and the Red Army and the Cold War? That is not the 
security environment today. I don't believe we are living in 
the Cold War today, even though some of the actions that Russia 
have taken and particularly their buildup of nuclear forces is 
reminiscent of those days. So what do we do? Well, I think we 
have to think about sanctions, sanctions with Europeans. I 
think we have to think about----
    Mr. Johnson. Do you think Europeans are going to respond to 
sanctions like they have with respect to the Ukraine?
    Ambassador Joseph. I hope not, but I think it is going to 
depend on American leadership.
    Mr. Johnson. Well, I tell you. What--if America--assuming 
that what you say is correct and the Russians are developing 
this class of banned cruise missiles, is there a way that those 
missiles gain an advantage over our defenses right now?
    Ambassador Joseph. Absolutely. Absolutely.
    Mr. Johnson. So then what you would recommend then would be 
that we go into another arms race and try to counter what they 
have done?
    Ambassador Joseph. Of course not. I am not recommending an 
arms race. But again, if you go back to the context in which 
this treaty was negotiated, the Soviet Union had deployed SS-
20s in order to cut the link between the United States and our 
European allies, to de-link the Europeans from the United 
States. This was about deterrence. This was about deterrence in 
the context of the Cold War.
    Things have changed, but the Europeans still, I would 
argue, feel a need for a strong nuclear deterrent. At the last 
NATO summit, they talked about that need. So this may require, 
this may require more capabilities. It certainly requires us, I 
believe, not to withdraw the remaining dual-capable aircraft 
and B61 bombs that are our only remaining theater nuclear 
deterrent in Europe. I think we need to look at what those 
options are, but we need to have consequences, as President 
Obama said.
    Mr. Johnson. All right. Thank you. With my last question, I 
would like to ask Ambassador Woolsey, an EMP assault, who would 
be the likely perpetrator? Is it a state or non-state actor, 
and what do you see their end game being, having been 
successful at creating a successful attack? What would happen? 
What do they expect to gain out of it?
    Ambassador Woolsey. Well, this would be undertaken only by 
someone or a country or group that wanted to absolutely destroy 
the United States because the consequences, as the commission 
mentioned, the range of debate is between those who think two-
thirds of the American population would die and those who think 
90 percent of the American population would die.
    Mr. Johnson. The cause of death being?
    Ambassador Woolsey. The cause of death being starvation, 
disease, societal breakdown. We have 18 critical 
infrastructures, and 17 of them depend upon electricity. So 
without electricity, you have no food, you have no water, you 
have no finances, you have no communications. You are back in 
the 19th century without the ability to support the U.S. 
population. I think that that is something that even at its 
worst, China and Russia are unlikely to want to bring about, 
but we had several incidents, including one very dramatic one 
during the Cuban Missile Crisis during the Cold War in which we 
came very, very close to nuclear war. In one case, the Cuban 
portion of the confrontation in the Cuban missile crisis, in 
one case, one Soviet navy admiral--or, rather, navy captain 
turning a key as his two colleagues had turned it----
    Mr. Rogers. Excuse me, Ambassador. We are way over time. I 
am going to have to go to the next Member.
    Gentleman from Oklahoma, Mr. Bridenstine, is recognized for 
5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Ambassador Woolsey, question for you regarding EMP. If we 
did have an event, such as an EMP, the electric grid, of 
course, would be at stake. Would all of our electronic gadgets 
as well be at stake?
    Ambassador Woolsey. As I understand it, and you realize you 
are getting this from a lawyer/history major, Congressman, not 
from a double E. As I understand it, there are three types of 
pulses that would come from an electromagnetic pulse detonation 
of, say, a nuclear weapon. One is rather similar to lightning, 
and we can discount it because we have dealt with seeing to it 
that our buildings and electronics can operate even when there 
is lightning. One has very short wavelengths and operates 
generally at line of sight, so if it were detonated up at a 
particular altitude, it would more or less travel to the 
horizon in all directions and would knock out everybody's 
computers, whether it is in your car or in your refrigerator at 
home or in this voice-magnifying box.
    The really terrible one is the third kind, which has very 
long wavelengths, and the waves ride along transmission lines 
and destroy transformers as they go. The transformers are the 
heart of our electrical grid. They are what step up the voltage 
so it can be moved, step it down again so we can use it in our 
homes and businesses and industry. That situation is one in 
which the transmission lines run so far and the electromagnetic 
pulse with the long wavelength carries so far, that the effect 
could be devastating over very large areas. It could be 
possible, although everything would have to work just right for 
it, for the entire continental grid of the United States to be 
taken out by one detonation.
    Mr. Bridenstine. So if we were to harden the grid, is that 
sufficient, or would the calamity that you speak of happen as 
computers and systems are fried across the country? Like is the 
grid enough?
    Ambassador Woolsey. The grid is not enough, but it helps a 
lot. If one could harden the grid against the long wavelength 
and the destruction of the transformers via the transmission 
lines carrying the long pulse, it would make it possible for us 
to come back, and it would not destroy the whole 
infrastructure. We would still have a lot of losses of local 
computers and automobiles and so forth, but those, once we 
started manufacturing again, could be redesigned in such a way 
that the computer in your car would not be knocked out any more 
than it is by lightning. So the thing that is a huge problem is 
this knocking out of the transmission lines and the 
transformers because the transformers are the heart of our 
electrical system. If they go down, everything goes down.
    Mr. Bridenstine. Got it. Ambassador Joseph, question for 
you regarding Ground-Based, Midcourse Defense. We have had 
tests in the past that have been very successful. We have had 
tests in the past that have not been successful. It seems like 
every time there is an unsuccessful test, some people use that 
as evidence that, look, it can't be done. We need to stop. When 
we have successful tests, the same people aren't saying, hey, 
look, we just accomplished something mighty. Let's continue to 
advance this capability.
    In your opinion, Ambassador Joseph, how important is it for 
the United States of America to have a very robust R&D 
capability for missile defense and on top of that, the 
infrastructure to do not just testing but validation and 
operational, how is it going to be used operationally? Can you 
talk about that for a second and also just for us as 
legislators, we have got to make sure that we are funding these 
kind of capabilities, but we don't want to be funding them if 
they are going to be used to say, oh, look this one test 
failed. Therefore, we need to scrap the whole system.
    Ambassador Joseph. Thank you. Yes, I think it is essential 
that we have a robust research and development program. We do 
need, as I said in my prepared statement, to fix the problems 
with GMD, and I think we are on course to do that. I think that 
we need to increase the number of interceptors. We need to do 
research and development, and I would argue, deploy 
capabilities like fast interceptors and multiple kill vehicles 
that will keep pace with the threat, because the threat is 
dynamic. The North Koreans are improving their capabilities. 
The Iranians will be doing the same thing. There is just no 
question about that. So this is dynamic. You can't just stop 
with GMD in place. You have to develop for the future.
    Also I think we need a robust R&D to take us beyond a 
limited missile defense. We need to explore those capabilities 
that will allow us to use missile defense as part of our 
deterrent with regard to Russia and I think probably China in 
the future, which means that we are going to have to have 
capabilities beyond the terrestrial-based type interceptors. We 
are going to have to have strong directed research in the field 
of directed energy for example.
    And I think space is very important. We need to explore the 
full potential of space because I think if we are going to have 
an option for dealing with larger-scale Russian-type threats, 
it will only come if we are able to deploy effectively in 
space. We need to find out what our options are, and to do 
that, we need to have a very robust R&D capability, and we have 
to maintain an infrastructure that can provide us with the 
capabilities that we need in the future to keep up with the 
multiple nature of the threats that we face.
    Mr. Rogers. Thank the gentleman.
    Gentleman's time is expired.
    The chair now recognizes the gentleman from Arizona, Mr. 
Franks, for 5 minutes.
    Mr. Franks. Thank you, Mr. Chairman, and thank all of you 
for being here.
    Director Woolsey, I can call you, Ambassador, Director. 
There is a lot of things I can call you. You have got a pretty 
amazing curriculum vitae. And I won't try to pretend my 
attitude toward you is somehow neutral. I consider you a 
friend, and I am a fan and especially was grateful for your 
testimony here today. You know the privilege I have of chairing 
the EMP caucus gives me a special interest in some of the 
comments that you made. And I guess it is important, I would 
like to point out that, you know, we talked a lot about the EMP 
Commission which is the gold standard study, but there are 11 
studies, 11 major studies all the way from NASA [National 
Aeronautics and Space Administration] to the Academy of 
Sciences to the Department of Defense to FERC, to all of these, 
and they all come to very similar conclusions. It is not as if 
this somehow, that this was some anomaly. And, again, I just 
appreciate your courage to be able to articulate this.
    Over time, sometimes it seems like things happen. I would 
like to say one thing before I ask you a question that I hope 
would be some encouragement to you. I have the privilege of 
chairing the World Summit on Electric Infrastructure Security, 
and we did our fifth year in London, and for the first time, I 
saw the industry, the major leaders, not NERC--NERC is still 
that trade association that you mentioned--but some of the 
major players now have come 180 degrees and are on board, and 
it is really very, very encouraging, so I look forward to some 
significant advances here.
    But you raise a few interesting points in your testimony 
about the potential Scud in the tub scenario, and you 
essentially answered my question and you kind of got ahead of 
me. But let me ask you, do you think and to what extent is not 
having a protected grid an invitation to certain opponents of 
America to exploit that vulnerability?
    Ambassador Woolsey. Congressman, I think it is a really 
open invitation if we don't have a resilient grid. The two 
countries I am the most worried about would be North Korea and 
Iran. North Korea already has nuclear weapons. It already has 
ballistic missiles, and it has launched toward the south in the 
sort of FOBS configuration, fractional orbit bombardment 
system, so that something that was launched on that trajectory 
into orbit would come around at us from the south where we have 
no radars, or effectively none, and no ability to perceive what 
is coming. So I think they have demonstrated something that 
they have, and we know from the Russians that the Russians have 
helped them. The Russians have told us this. And North Korea is 
ruled by a madman as far as we can tell. This is not someone 
who is just as stolid and someone who has great challenges for 
us in figuring out how to negotiate with him and deal with Kim 
Jong Un. Iran presents a different kind of problem because 
although they have not tested a nuclear weapon yet, they have 
tested ballistic missiles of course. They have tested ballistic 
missiles launched from platforms in the water. They have tested 
ballistic missiles firing toward the south. And moreover, the 
leaders, Khamenei and the others are, at least if you listen to 
what they say and take them seriously, they have very strong 
religious views that it is their mission in eternity to destroy 
us. It is not just hostility. It is a religious commitment that 
we should be gotten rid of.
    Mr. Franks. I think, for me, that is one of my greatest 
concerns. When someone feels transcendentally justified, it 
becomes a different equation and some of the traditional 
deterrents is of little impact. Let me ask you one more quick 
question. As you know, the Defense Department over the years 
has spent literally billions now over the last four or five 
decades hardening many of our defense critical assets against 
EMP. We are very aware of it on the military side of it, and we 
don't have difficulty convincing generals, but the civilian 
grid issue, we remain completely vulnerable. If Iran were to, 
say, gain a nuclear weapons capability today that they might 
delegate to some nonstate actor, what do you think would be our 
reaction toward hardening our grid at that point?
    Ambassador Woolsey. I would hope our interests would pick 
up quickly because it takes very little sophistication to 
launch something like this. The books by Peter Pry talk for 
example, about the possibility of launching a nuclear weapon up 
to low Earth orbit altitude with a weather balloon. One is not 
necessarily talking even about a ballistic missile. So anything 
that can get a simple nuclear weapon weighing a few tens of 
pounds up to 30 miles could create this EMP effect. And for the 
Iranians to make it possible for Hezbollah to have a nuclear 
weapon in a weather balloon is not beyond the reach of 
imagination.
    Mr. Franks. Well, let me just suggest to you, I am very 
grateful to you for your courage, and I have said once here 
just a few days ago that perhaps former Vice President Dick 
Cheney was one of the most articulate spokesmen on this issue, 
but I may have to change my mind here.
    Ambassador Joseph, there is a great deal of respect on my 
part for you, too, sir. They say that one of the most 
encouraging things in the world is to hear your own convictions 
fall from another's lips, and that is certainly what has 
happened here today, and I appreciate you.
    President Obama said, in 2001, that I, ``don't agree with 
missile defense systems.'' In 2008, as a candidate, he stated, 
``I will cut tens of billions of dollars in wasteful spending. 
I will cut investments in unproven missile defense systems.'' 
Now he has implemented these what I think are radical political 
ideologies rather than defense principles, and how would you 
describe the impacts of these campaign speeches on our national 
defense?
    And Mr. Chairman, before I ask you to make that question, 
could I ask that the Congressional Budget Office letter of July 
21 be placed in the record that would show how this 
administration has affected missile defense?
    Mr. Rogers. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Franks. And if you still remember the question here.
    Ambassador Joseph. First of all, I think you characterized 
the position of Senator Obama correctly. I mean, he was a 
missile defense critic. He used the same talking points: It 
won't work, it is too expensive, it will be destabilizing. He 
in 2008 ran against basically missile defense, pledging that he 
would cut tens of billions of dollars. He certainly has cut 
billions of dollars from the budget, but it is interesting to 
point out that in 2010, the DOD Ballistic Missile Defense 
Review, President Obama's administration made the statement 
that we are now, we, the United States, are now protected 
against--against threats from North Korea and other rogue 
states because we have a limited missile defense, and that 
capability is due to the investments that had been made in 
prior years in GMD. So apparently the policy has--has evolved 
since--since 2001, and certainly since 2008.
    Mr. Franks. Thank you, Mr. Chairman. I will stop there, but 
I would----
    Mr. Rogers. We will do another round.
    Mr. Franks. Okay.
    Mr. Rogers. I appreciate it. Our clocks are screwed up, so 
I am trying to make sure to give everybody plenty of time going 
over, but let's go to our friend and colleague from California, 
Mr. Garamendi, for 5 minutes or thereabouts.
    Mr. Garamendi. I am sure you will let me know when 
thereabout arrives.
    Ambassador Joseph, you were discussing the success of the 
limited missile defense system. Do you still hold the view that 
it should be a limited missile defense system against North 
Korea, Iran, and an unintended missile from Russia or China, or 
should we go to a full-out missile defense system against the 
Chinese and Russian numerous missiles that they have?
    Ambassador Joseph. So that is a--a very important question. 
Clearly I think, and I believe that there is a consensus, or a 
general consensus, that we need to have a defense against rogue 
state threats that would provide a limited capability against a 
limited threat. On that, there is consensus.
    I believe that there is greater cogency to the argument 
that we need a capability for accidental and unauthorized 
launch, which may not be the limited defense that you need for 
a North Korea-type threat.
    Mr. Garamendi. Describe. What did you just say and why did 
you just say that?
    Ambassador Joseph. Well, if you look at the missile defense 
plan for the Bush 41 administration, it was a global protection 
against accidental launches--or limited strikes, GPALS, Global 
Protection Against Limited Strikes, and the defining 
requirement was to protect the United States against, if I 
remember correctly, about 200 warheads, which would be one 
Soviet, one Russian boat that had been taken by, you know, by a 
rogue commander. So you had, you know, an accidental and 
limited capability, but it was much more than the limited 
capability that you can get through terrestrial-based GMD-type 
interceptors, which, you know, are----
    Mr. Garamendi. I got the difference. Do you--should we then 
go to the 1990--excuse me, 1991 policy or stay with the 1999 
policy?
    Ambassador Joseph. Well, I think given the change in our 
relationship with Russia, which has certainly not been a change 
for the positive, given that there is a huge--I would argue, a 
huge prospect for miscalculation--I don't think this is first 
strike, second strike, this is not cold war, but I think we are 
in a situation where miscalculation can take place very easily. 
It could have taken place in Georgia. I have been told by 
Russian sources that in the context of Georgia, the Russians 
were preparing, not--not--they didn't have their finger on the 
trigger; they were preparing and they had plans for a nuclear 
exchange with the United States, because they didn't know how 
this would escalate.
    And they think about nuclear weapons a lot differently than 
we think about nuclear weapons. My sense is that of the 
hundreds if not thousands of analysts on our side who were 
following Georgia, not one was thinking about a nuclear 
exchange. That is a very dangerous situation. That is a 
situation in which miscalculation can occur, and I think we 
need to protect against that. What are our options? I think we 
need to explore what those options are. That is why we need to 
invest in research and development----
    Mr. Garamendi. If we need to explore, why don't you help us 
explore.
    Ambassador Joseph. Well, I think we need to emphasize 
directed energy in our research and development and we need to 
emphasize space. We need to consider a space testbed, which was 
proposed earlier in the Bush administration, to find out what 
our options are and whether those options are for an 
unauthorized or accidental launch of the type I have described, 
or whether we have options for larger-scale attacks on the part 
of Russia or China. We should know what those options are, 
because we do know that we are going to be surprised in the 
future and that miscalculation with Beijing and with--and with 
Moscow can happen.
    Mr. Garamendi. I want you to put--the three of you to put 
yourself in China and Russia's shoes with the same questions. 
How do they perceive us? You said that we don't have one 
analyst. Have we ever gone to a situation in which we are 
preparing, in recent times, for a nuclear exchange?
    Ambassador Woolsey. I think Russia is more of a problem 
than China.
    Mr. Garamendi. No. You are in their shoes.
    Ambassador Woolsey. In--I think if I were----
    Mr. Garamendi. How do look at the United States?
    Ambassador Woolsey. In my old job, but in Russia rather 
than in the United States, I could be tempted to think that I 
couldn't accomplish my country's objectives of dominating 
Europe and as much of Eurasia as possible without being rather 
aggressive; and that Putin, as KGB officer and with his history 
and the KGB's history of what they call disinformation, 
dezinformatsia, essentially adopting as their own, their 
propaganda.
    Mr. Garamendi. So do you want to have your own missile 
defense system because the United States has so many offensive 
weapons?
    Ambassador Woolsey. Oh, I want as much as I can get if I am 
the head of the KGB. I want----
    Mr. Garamendi. So are you building those? Does Russia build 
missile defense systems?
    Ambassador Woolsey. I am--yes, I think I am building 
missile defense systems, I am building offensive systems, I am 
working on electromagnetic pulse, all of the above.
    Mr. Garamendi. Ambassador Joseph.
    Ambassador Joseph. Well, first of all, Putin has declared 
the United States----
    Mr. Garamendi. No, no. You are----
    Ambassador Joseph [continuing]. Is the largest adversary. 
So from a Russian perspective, we are the adversary. Putin has 
undertaken a large-scale modernization of their offensive 
nuclear forces, all three legs of the triad. I understand from 
open Russian sources, I don't have access to the intelligence, 
that Russia plans by 2020 to spend more on missile defense than 
the United States.
    Mr. Garamendi. Sufficient to overwhelm our strategic 
weapons?
    Ambassador Joseph. Well, I think that as--you know, as--you 
know, looking at it from Putin's perspective, that would be 
exactly what he would want.
    Mr. Garamendi. Do you have the money----
    Ambassador Joseph. Look, this notion of destabilizing----
    Mr. Garamendi. Do you have the money to do it?
    Ambassador Joseph. This notion of destabilization and an 
arms race, this is a western concept. It is--it was at the core 
of the ABM treaty. The Russians never bought that.
    Mr. Garamendi. Mr. Coyle, I don't have much time; in fact, 
I am well over time, so--assuming the clock is half accurate.
    Mr. Coyle. Well, Congressman Garamendi, just to quote 
Admiral Winnefeld again, ``it is not the policy of the United 
States to build a ballistic missile defense system to counter 
Russian ballistic missiles.''
    I believe he is correct when he says that. And so if I put 
myself in the Russians' shoes and we suddenly declare that we 
are going to do that, we are going to build a defense like 
that, I think they will use it as an excuse to build more 
offensive systems, perhaps more cruise missiles, perhaps all 
kinds of things that they don't have an excuse for now.
    Mr. Rogers. Gentleman's time has expired. I thank the 
gentleman.
    And we will start round two now, and I believe everybody 
had had a first round, so I will start off. And before I ask my 
first question, I do want to point out that, you know, you made 
the comment about Admiral Winnefeld in your opening statement. 
He is the vice chairman of the Joint Chiefs, and I think he has 
to espouse the position of the administration. I think that 
that policy is really a policy of the Obama administration. I 
am not sure that he is espousing that as his best military 
judgment, but that is just an observation on my part.
    Let me ask this: China and Russia seem to want to do--and 
they seem to be openly doing things for their own benefit in 
that they are modernizing and building up their nuclear forces, 
but at the same time openly developing missile defense 
capabilities to neutralize the American strategic forces. In 
fact, China's ministry of defense announced this morning that 
he conducted another test today.
    So given that we know openly China's doing this, Russia's 
doing it, why do you think that it is America's policy to go 
along with this and get along and not be more aggressive in 
trying to face and push back against those trends for those two 
countries? Start with Mr. Coyle.
    Mr. Coyle. Well, I think the main reason, just speaking 
from a technological point of view, is we don't know how to do 
it, we don't know how to build a missile defense system that 
would stop all of Russia's or China's intercontinental 
ballistic missiles. And there is the question, well, if we did 
know how, what would that cost? CBO has never been able to 
estimate it, because nobody's been able to describe what that 
system would look like. And then there is this argument, which 
you have been hearing today, about whether or not it would be 
destabilizing. But I think the first thing is we just don't 
know how to do it right now, and--and so that is the first step 
and that is the first problem.
    Mr. Rogers. Mr. Joseph.
    Ambassador Joseph. Well, I think there is a strong 
ideological dimension to it, and I think that is there is a 
sense that there is an arm--on our part, there is an arms 
control solution to every problem.
    I think that there clearly isn't in this case. The Russians 
have no interest, and they have said so explicitly, no interest 
in arms control, whether it is for offensive, strategic forces, 
or for their theater forces, in large part, because we have 
already made concession after concession, we have very little 
to give and they have, at least in the theater category, an 8-
to-1 or 10-to-1 advantage. Why would they?
    So there is this--there is this notion that we should be 
going to global zero; we should be--we should be negotiating 
with the Russians; the Russians object to our missile defenses, 
therefore, we make concessions on missile defenses. We have 
seen this pattern of behavior over and over, and it doesn't 
work.
    We did get the Russians to the negotiation table--to the 
negotiating table for New START, we did do that, and we did 
that through a missile defense concession, and we did get an 
agreement, but if you look at the agreement, we are the ones 
that go down. The Russians go up.
    So if you are into, my view, unilateral disarmament, you 
pursue these issues like we are pursuing them.
    Mr. Rogers. Ambassador Woolsey.
    Ambassador Woolsey. I was an advisor, a delegate at large 
and then ambassador and chief negotiator for four different 
arms control negotiations from 1969 through 1991, and the one 
that I negotiated as chief negotiator covered all the countries 
of Europe and all of their conventional weapons in six 
languages, 101 pages, we did it in about a year, and I thought 
it was a real achievement. It turned out that Putin junked it 
as soon as it was inconvenient for him.
    And I think that the United States has been, on the whole, 
really quite naive about thinking that arms control agreements 
are in fact going to limit the likes of Mr. Putin. It is, I 
think, just not in the cards.
    Fouad Ajami, who sadly died a month or two ago, a marvelous 
scholar of the Near East, American journalist and scholar, said 
that President Obama is a constitutional scholar lost in a 
world of thugs, and I am afraid there is some truth to that. We 
are in a world of thugs, and one of them is Putin in spades. 
And it is important that we realize that, and that that is what 
we are dealing with, not a group of collegial, law-abiding 
countries that will kind of go along with whatever we sign and 
treat it with the same degree of respect that we treat things 
we sign. It is just not who we are dealing with. I wish it were 
otherwise.
    I felt a real sense of achievement in negotiating that 
treaty. It lasted only as long as Putin didn't need to get rid 
of it.
    Mr. Rogers. Well, let me ask this: We have heard 
observations today about Russian policy, China policy, North 
Korea, and our responses thereto. We haven't heard anything 
about Iran. I would love to hear your thoughts about what we 
should be doing with regard to the threat from Iran. And each 
one of you, just whichever order you want to go in. Start with 
you, Ambassador Woolsey.
    Ambassador Woolsey. Bernard Lewis, a great scholar at 
Princeton of the Middle East, says that during the Cold War, 
mutual assured destruction was a deterrent. Unfortunately now, 
with respect to the leaders of Iran, it is an inducement. And 
what he means by that, I believe, is that the set of beliefs I 
described earlier in which the Iranian leadership really 
believes there is a theological case to be made and that should 
really dominate their thinking for destroying, particularly the 
United States and Israel and our civilizations, not just one 
government, that is, I am afraid, something that drives a lot 
of the decisionmaking at the top level of the Iranian 
government.
    Mr. Rogers. And what should we do about it from a policy 
standpoint?
    Ambassador Woolsey. First--first thing is to recognize it 
and not to get bogged down in wishful thinking. The Persians 
invented chess, and they are good at it. And the way I think of 
it is that they have one pawn that they are moving down along 
the side of the board down to the King's row to turn him into 
the most lethal piece, the Queen, which for--in the real world 
would be the nuclear weapon. In the meantime, they are 
distracting their opponent by doing other things on other parts 
of the chessboard, but the objective is to get that nuclear 
weapon.
    I think they will do anything they can to see to it that 
they are able to turn this situation with a limited number of 
devices and the rest into a relatively quick nuclear weapon as 
soon as they want it and need it, and I think that is their 
objective.
    Mr. Rogers. Ambassador Joseph.
    Ambassador Joseph. Let me focus on the negotiations. We, of 
course, don't know whether there will be an agreement with Iran 
reached by the time of the latest deadline. If there is an 
agreement, we don't know whether there will be ex---how many 
centrifuges will be allowed, what will be the restrictions on 
R&D, how long the--you know, the restrictions will last, what 
will be the verification procedures. There are many, many 
things that we don't know, but we do know what won't be in that 
agreement right now. We do know that there will be no limits on 
Iran's ballistic missile program. And the supreme leader has 
recently said that, we need to redouble our efforts in this 
area. And we know from our own sources that, in fact, they are 
doing just that. They already have the largest ballistic 
missile defense force in the region, and it is improving, 
including capabilities that will provide them with continental 
range missiles. We also know that there will be no ban on 
enrichment.
    So the two things we know combined means that Iran will be 
a nuclear weapons threshold state with an expanding ballistic 
missile capability. We know that.
    Secretary Kerry has stated that the goal of the 
negotiations is no longer to deny Iran a nuclear capability, 
but it is to extend the time for breakout from 2 months to 6 
months or 12 months. I think this is a fundamental mistake. I 
think other countries in the region will want the same 
capability, and it will lead to further proliferation. I think 
it will undercut decades-old U.S. policy to discourage 
enrichment by other countries. And we have been discouraging 
our friends for many, many years, but once we say yes to Iran, 
how do we say no to the Australians? How do we say no to--you 
know, to the South Koreans? How do we say no to others?
    And I come at this from a non-proliferation perspective, 
and I am very concerned about that. It will put--you know, this 
type of agreement will put Israel behind the eight ball, make 
it more difficult for them to use force, because Iran will be 
allowed to continue its nuclear program, something that the 
Israelis have said is unacceptable.
    Mr. Rogers. Mr. Coyle, how would you suggest our policy 
respond to the growing concerns with Iran's nuclear capability?
    Mr. Coyle. Well, it is--Mr. Chairman, it is obvious that 
the negotiations between the P5 and Germany and Iran have been 
very difficult, now being extended for another 4 months, I 
guess it is. And I am hopeful, of course, that those 
negotiations will be successful. So far, they have halted the 
growth in Iran's nuclear program for 10 months. I hope it is 
much longer than that, but anything that can be done to limit 
the growth and the size of Iran's nuclear program, I think is 
in our national interest.
    Mr. Rogers. Thank you. Thank the gentlemen.
    I now recognize the gentleman from Tennessee for any 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I would just like to 
reiterate my call for a more balanced witness panel. I think we 
have heard a number of bold, sometimes almost wild and 
intemperate statements. So if we do want to pursue them, they 
should be fleshed out with a more balanced approach so that 
this committee and the Congress could have more sources of 
information, but I have no further questions at this time.
    Mr. Rogers. The chair recognizes the gentleman from 
Oklahoma, Mr. Bridenstine, if he has any additional questions.
    Mr. Bridenstine. Ambassador Joseph, just out of curiosity, 
if the United States of America has a $17 trillion GDP and 
Russia has a $2 trillion GDP, if our economy is that much 
larger than theirs, is there any reason why we should seek 
parity with them as it relates to our defenses?
    Ambassador Joseph. Well, I don't think our defenses should 
be focused or should be sized to that of Russia, because we 
have a different set of threats than Russia faces. Russia is, 
of course, developing and modernizing its strategic defenses, 
particularly of the Moscow region, which is a region that is 
large enough to incorporate ballistic missile fields, offensive 
fields, but we have--we have interests that are much different 
than the Russians, we have adversaries that are different than 
the Russians, and so we need to size and scale our ballistic 
missile defense according to our needs, not according to some 
concept of parity.
    Mr. Bridenstine. And I just--I appreciate that testimony. 
It seems to me that if we are economically in a stronger 
position, then it would make sense that militarily we should be 
in a stronger position, and to constrain ourselves because 
Russia is constrained by their GDP, I think that leads us down 
a path of instability. I think a strong America is a safe 
world, and that when we try to constrain ourselves, we get what 
is happening right now where Vladimir Putin has invaded Georgia 
and he still occupies South Ossetia and Abkhazia.
    He has threatened nuclear war in Poland; he has threatened 
the Baltic States, Latvia, Lithuania, Estonia. He has cut off 
energy, and people have suffered and died. When you talk about, 
you know, the aggression in Crimea and in eastern Ukraine, you 
know, these things don't just happen because--because, you 
know--I guess, because, the United States of America is doing 
the right thing. These things happen because people perceive 
right now that we are not going to do what is necessary to 
protect free countries and countries that are fighting for 
their independence.
    When you look at Syria, I mean, the Russians are helping 
the Assad regime in Syria, and the mullahs in Iran are going 
around sanctions and building nuclear centrifuges, and, of 
course, those are built by the Russians. It seems like wherever 
you go in the world, the Russians are on the wrong side, and it 
overwhelmingly appears to me that there is no balance to this, 
and that if we constrain ourselves because the Russians are 
constrained, and, of course, they are constrained because their 
economy is weak, and their economy is weak because it is run by 
organized crime and they can't attract investment.
    We have a very different system here in the United States, 
and it has resulted in us being economically and militarily 
very powerful. And for us to turn around and use those gifts--
or to constrain ourselves when those gifts are bequeathed upon 
us, it would seem that we would be turning our backs on our 
obligations.
    I am a strong advocate that the United States needs to 
remain the superpower that it is. And to constrain ourselves 
because a country run by organized crime is constrained 
naturally, I think that is a bad direction for our Nation.
    Thank you. Thank you all for your testimony.
    Mr. Rogers. The chair recognizes the gentleman from Arizona 
to bat cleanup.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Ambassador Joseph, let me begin here again with you. First 
of all, again, I appreciate your testimony so much. I don't 
usually ask metaphysical questions, but sometimes it is a 
rather challenging thing for me to understand why our friends 
on the left seem to be so antithetical toward missile defense. 
You and I know that--that the limited capability that we have 
at least affords us the opportunity to defend ourselves against 
an early attack, whether it is an accident or whatever it might 
be a limited attack, so that then we have the opportunity, not 
to have to respond overwhelmingly. We know that a Russian 
Federation strike would overwhelm our system immediately, we 
understand that. And for those that say, you know, we can't 
protect against all of them, that it doesn't--it doesn't matter 
at all. We know that the situation in Israel has been borne out 
where Iron Dome has afforded them the opportunity to hold off 
some offensive attacks and then allows them the time to go in 
and take out and dismantle those offensive capabilities. We 
understand all that.
    And yet, in all loving deference to my friend, Mr. Coyle, 
just a few years back, you know, the argument, and I don't want 
to put the words in his mouth, but as I understood them were to 
suggest that, you know, the bullet hitting bullets technology 
is fantasy. And at that time, of course, we were beginning to 
hit a dot on the side of a bullet with a bullet consistently, 
in the words of General Obering.
    So what is it--there was this notion that you tried to 
articulate that GMD was rushed into development without 
adequate testing. You addressed that. What is it that makes our 
friends on the left seem so antithetical to this capability, 
when all through history, the paradigm of warfare has been a 
new capability offensively is met with a defensive capability, 
and we just keep going till we--and now we face the most 
dangerous weapons in the world, an incoming nuclear missile 
that could ruin your whole day if it lands. Why is there this 
hesitation to have some sort of defensive capability?
    Ambassador Joseph. Sir, I don't know the answer----
    Mr. Franks. You don't answer metaphysical questions. Is 
that what you are saying?
    Ambassador Joseph. Well, I am--I am always willing to throw 
out an answer, or a guess, in this case. And my sense is that 
there is still a hangover from the ABM Treaty days. There is a 
legacy of thought from the ABM Treaty days where defenses were 
considered to be bad by the United States. Okay. Soviet Union 
went along with the ABM Treaty, but they cheated on that 
treaty, just like they cheat on INF and other agreements. But 
we had sort of ingrained in our strategic thought this notion 
that mutual assured destruction is the best means of protecting 
the United States. These are not people who don't want to 
defend the United States, but these are people who believe that 
by being defenseless against large-scale attack, against the 
destruction of our society by ballistic missiles with nuclear 
warheads, we will actually be safer, because that will be 
stabilizing, because if both sides can destroy the other, et 
cetera, you know, you----
    Mr. Franks. Yeah.
    Ambassador Joseph. You know the logic. And I think this, to 
me--and I have an academic background. This, to me, proves the 
staying power of bad ideas. I think it has been a bad idea for 
a long time. You can certainly differ, I am open to other 
arguments, but this bad idea just doesn't go away, and it 
didn't go away when the ABM treaty went away. We still have 
that legacy.
    And the second factor is that we very much long for the day 
in which we can all just get along, and the means to get there 
is another arms control agreement.
    Mr. Franks. Yeah.
    Ambassador Joseph. That is how we approach this stuff.
    Mr. Franks. Yeah. All right.
    Ambassador Joseph. And our adversaries don't. They don't. 
They see the world differently. They see the world in power 
terms.
    Mr. Franks. Obviously I couldn't agree with you more.
    Ambassador Woolsey, let me save the last question here for 
you. First of all, like you, I consider the potential of an 
offensive EMP attack against us to be one of the more dangerous 
short-term national security threats that we have. And so my 
question to you is, given the consequences of a massive EMP 
attack, or GMD event, as you have laid out in your testimony, 
what practical steps do you give us to address this step? Is 
legislation necessary or to get industry to move? And what 
practical ideas do you propose that we can move toward 
protecting the electric grid and taking away the incentive of a 
potential enemy to exploit this vulnerability?
    Ambassador Woolsey. Congressman Franks, that is a great 
question. I have thought about this. And I believe that 
although they will not want it, there is only one institution 
in the U.S. Government that could take charge and get something 
done and do it quickly, and that is the Department of Defense. 
I would charge the Secretary of Defense with whatever support 
he needed from other agencies, FERC would be one that would be 
very helpful to him, by the way, I think, put him in charge, 
give him the job of protecting the grid now, and the resources 
that he needs.
    I think you also need a Presidential commitment, but 
without someone in charge, including officials at the State 
level, this is an emergency, I think without someone in charge, 
this will fail. The electric grid is just too diverse in the 
influences on it and the people who have some kind of control 
over parts of it.
    Mr. Franks. Well, thank you all. And thank you, Mr. 
Chairman.
    Mr. Rogers. Thank all of you. And that brings us to--yes, 
sir, Mr. Coyle. You had something to say?
    Mr. Coyle. I just wanted to make a comment, if that would 
be okay.
    Mr. Rogers. Certainly. Certainly.
    Mr. Coyle. Just in my own defense, I have never said that 
you can't hit a bullet with a bullet, and we know from the 
tests that we have done it many times now.
    Mr. Franks. That was a long time ago.
    Mr. Coyle. I would point out that there is common ground in 
my testimony and in Ambassador Joseph's testimony. We both want 
the Ground-Based Midcourse system to work. And in my testimony, 
I call for both sides of the aisle to work together to fix some 
of the problems that have been plaguing that system. It will 
involve new investment and new ideas. I think the best science 
and technology should be put towards missile defense just as we 
put it towards everything else that we do in life, American--
the best of American science and technology. And so I think 
there is some common ground there.
    Mr. Rogers. And one piece of good news on that front is 
that, I think it is 168 million new dollars over and above what 
had been requested has been put into GMD in this coming year. 
So the folks seem to recognize just what you said, that it 
needs a little more attention, love and attention.
    I would like to offer for the record the release that I 
mentioned earlier from the Chinese minister of defense about 
their test today. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 74.]
    Mr. Rogers. And thank you all for being here. We are 
adjourned.

    [Whereupon, at 4:21 p.m., the subcommittee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                             July 23, 2014

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 23, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 23, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 23, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Russia is developing new missile defenses (for example, 
the S-500 and the nuclear tipped Gazelle system, which it tested in its 
recent March 2014 nuclear force exercise) and China has also recently 
tested missile defenses. In a report provided to the committee last 
year by the Chairman of the Joint Chiefs of Staff, he stated that,
    ``Russia's objective with its ballistic missile defense (BMD) 
capabilities is to ensure defense of critical political and military 
targets in the Moscow area from a ballistic missile attack either by 
the United States or any other nation with nuclear or conventional 
ballistic or cruise missile capabilities.''
    a. We have spent years trying to convince Russia that our missile 
defenses aren't about them, yet Russia and China are openly developing 
missile defenses against us. Why do we continue to take this position? 
Does it continue to make sense (to the extent it ever did)?
    b. We adopted the policy of ``limited national missile defenses'' 
in 1999. How has the world changed since then in terms of proliferation 
of ballistic missile technology, proliferation and modernization of WMD 
capability, and Chinese and Russia relations with the U.S. and our 
allies?
    c. What are your recommendations to this committee on updating the 
NMD Act?
    Ambassador Woolsey. a.1 There is no good reason any more.
    a.2 No.
    b. Ballistic missile technology is coming to be highly proliferated 
and modernized as has WMD capability. Relations with Russia and China 
are cool to cold.
    c. The act should be thoroughly restructured to account for the 
above changes.
    Mr. Rogers. China and Russia seem to want to have their cake and 
eat it too: they are both modernizing and growing their nuclear forces 
(China and Russia are both developing and fielding a modernized TRIAD 
of nuclear forces, and Russia has undertaken a material breach of the 
INF treaty and is cheating on the CTBT) while developing missile 
defenses to neutralize American strategic deterrent forces.
    a. Why do we play along with their notion of ``strategic 
stability''? Doesn't this current situation prove what former Defense 
Secretary Harold Brown once summed up as ``when we build, they build; 
when we cut, they build''?
    b. At what point does it pose an unacceptable threat?
    c. Does Putin feel assured, because of his nuclear forces, that he 
has a certain freedom of action? Have we seen that play out recently?
    Ambassador Woolsey. a.1 We should not.
    a.2 Yes.
    b. Now.
    c.1 Yes.
    c.2 Yes.
    Mr. Rogers. We deploy missile defenses to deal with Chinese anti-
ship ballistic missile capabilities, don't we? How do we explain to the 
American people that we are willing to defend the 5,500 sailors on an 
aircraft carrier, but not the 5 million residents of (the greater 
Seattle area or LA) who are threatened by Chinese ICBMs and SLBMs?
    Ambassador Woolsey. a. Yes.
    b. We cannot do so persuasively.
    Mr. Rogers. We are deploying a cruise missile defense capability to 
protect the National Capital Region from cruise missiles, including, 
according to the CDR of NORTHCOM, Russian cruise missiles. Does it make 
sense that we deploy cruise missile defenses to protect the Capital 
from Russian cruise missiles, but we will not develop and deploy 
missile defenses to protect the American people against Russian 
ballistic missiles?
    Ambassador Woolsey. No.
    Mr. Rogers. Do you believe the United States needs a layered 
missile defense capability? So, boost, mid course, and terminal missile 
defenses?
    a. What is the impact, then, of the Obama administration 
terminating all of our boost phase missile defense programs in 2009?
    Ambassador Woolsey. Yes, and immediate attention to the 
vulnerability of our electric grid to an orbited nuclear weapon.
    a. Dangerous.
    Mr. Rogers. In 2009, the administration sent Poland a PATRIOT 
battery, with no missile interceptors. The Poles called this deployment 
a ``potted plant.'' Presumably, this was done to attempt to mitigate 
Russian concerns.
    a. What is the damage down to our alliances when we make such 
silly-looking deployments?
    Ambassador Woolsey. a. Substantial.
    Mr. Rogers. What should the future of missile defense look like?
    Ambassador Woolsey. Boost-phase, including space-based. EMP attacks 
from orbiting nuclear weapons appear impervious to BMD unless all 
launches of any kind from a particular country are destroyed on the pad 
or early in boost phase (as advocated several years ago by William 
Perry and Ashton Carter).
    Mr. Rogers. President Obama said in 2001 that ``I don't agree with 
a missile defense system.'' In 2008, as a candidate, he stated, ``I 
will cut tens of billions of dollars in wasteful spending. I will cut 
investments in unproven missile defense systems.'' Has he implemented 
these political ideologies? How would you describe the impacts of these 
campaign speeches on our national defense?
    Ambassador Woolsey. a. Yes.
    b. Highly damaging.
    Mr. Rogers. In 2009, President Obama slashed our deployment of GBIs 
from 44 to 30 and cut our GMD budget in half, and terminated kill 
vehicle modernization programs like the MKV.
    a. Is it any wonder our only national missile defense system has 
encountered difficulty?
    Ambassador Woolsey. No.
    Mr. Rogers. Some on the Left say we need to make concessions on 
U.S. missile defense or they fear we won't be able to obtain further 
nuclear reductions. Would you care to comment on whether that is true 
and if so, what recommendations would you offer the subcommittee?
    Ambassador Woolsey. Since Russia cheats on its treaty obligations 
most reductions disproportionately affect us and are therefore not 
worth bargaining for.
    Mr. Rogers. The administration is refusing to brief this committee, 
including its chairman, on the facts of its proposals to Russia to make 
agreements on our missile defense deployments.
    a. Do you believe the administration owes it to the people's 
representatives in Congress to keep it informed on these matters?
    b. What should the Congress do if the administration continues to 
hide these matters from it? Would you support efforts to fence or limit 
funding until Congress' oversight responsibility is respected?
    Ambassador Woolsey. a. Absolutely.
    b. Limit funding desired by the administration, not the small 
amounts going to BMD.
    Mr. Rogers. It has been reported that Ukraine has asked for the 
deployment of a PATRIOT battery to defend its territory. Is there any 
good reason not to deploy it?
    Ambassador Woolsey. No.
    Mr. Rogers. A week prior to this hearing, this subcommittee held a 
hearing on Russia's violation of the INF treaty.
    a. What are the implications of the administration's refusal to 
provide that annually required report and to finally, years overdue, 
confirm that Russia is in violation of that treaty? What do our allies 
take away from this meekness? How about Russia and Putin?
    b. How should the U.S. and our NATO and Asian allies respond?
    c. Is further arms control possible when one party to treaties 
decides it does not have to comply with them?
    Ambassador Woolsey. a. 1, 2 and 3. Demonstrates excessive 
willingness to accommodate Russia, dangerously so.
    b. Deploy BMD ourselves while chronicling Russia's violations. 
Withdrawing from treaty is one strong possibility.
    c. No.
    Mr. Rogers. What should Congress prioritize in terms of future 
investments to our missile defense system?
    Ambassador Woolsey. Space-based boost phase and defenses against 
EMP attacks, including making electric grid far more resilient.
    Mr. Rogers. In 2010, Vice President Biden offered that one of the 
reasons the Senate should ratify the New START treaty was to strengthen 
the hand of then President Medvedev versus Mr. Putin? Did that theory 
work out any better for us that any of the Vice President's other 
foreign policy recommendations in his almost 40-year Federal Government 
experience?
    Ambassador Woolsey. No.
    Mr. Rogers. Russian nuclear doctrine, according to Russian press 
reports, envisions the use of nuclear weapons in a conventional 
conflict. Can the U.S. or its allies afford not to defend itself from 
such a escalatory use of nuclear weapons?
    Ambassador Woolsey. No.
    Mr. Rogers. Russia is developing new missile defenses (for example, 
the S-500 and the nuclear tipped Gazelle system, which it tested in its 
recent March 2014 nuclear force exercise) and China has also recently 
tested missile defenses. In a report provided to the committee last 
year by the Chairman of the Joint Chiefs of Staff, he stated that,
    ``Russia's objective with its ballistic missile defense (BMD) 
capabilities is to ensure defense of critical political and military 
targets in the Moscow area from a ballistic missile attack either by 
the United States or any other nation with nuclear or conventional 
ballistic or cruise missile capabilities.''
    a. We have spent years trying to convince Russia that our missile 
defenses aren't about them, yet Russia and China are openly developing 
missile defenses against us. Why do we continue to take this position? 
Does it continue to make sense (to the extent it ever did)?
    b. We adopted the policy of ``limited national missile defenses'' 
in 1999. How has the world changed since then in terms of proliferation 
of ballistic missile technology, proliferation and modernization of WMD 
capability, and Chinese and Russia relations with the U.S. and our 
allies?
    c. What are your recommendations to this committee on updating the 
NMD Act?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. China and Russia seem to want to have their cake and 
eat it too: they are both modernizing and growing their nuclear forces 
(China and Russia are both developing and fielding a modernized TRIAD 
of nuclear forces, and Russia has undertaken a material breach of the 
INF treaty and is cheating on the CTBT) while developing missile 
defenses to neutralize American strategic deterrent forces.
    a. Why do we play along with their notion of ``strategic 
stability''? Doesn't this current situation prove what former Defense 
Secretary Harold Brown once summed up as ``when we build, they build; 
when we cut, they build''?
    b. At what point does it pose an unacceptable threat?
    c. Does Putin feel assured, because of his nuclear forces, that he 
has a certain freedom of action? Have we seen that play out recently?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. We deploy missile defenses to deal with Chinese anti-
ship ballistic missile capabilities, don't we? How do we explain to the 
American people that we are willing to defend the 5,500 sailors on an 
aircraft carrier, but not the 5 million residents of (the greater 
Seattle area or LA) who are threatened by Chinese ICBMs and SLBMs?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. We are deploying a cruise missile defense capability to 
protect the National Capital Region from cruise missiles, including, 
according to the CDR of NORTHCOM, Russian cruise missiles. Does it make 
sense that we deploy cruise missile defenses to protect the Capital 
from Russian cruise missiles, but we will not develop and deploy 
missile defenses to protect the American people against Russian 
ballistic missiles?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. Do you believe the United States needs a layered 
missile defense capability? So, boost, mid course, and terminal missile 
defenses?
    a. What is the impact, then, of the Obama administration 
terminating all of our boost phase missile defense programs in 2009?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. In 2009, the administration sent Poland a PATRIOT 
battery, with no missile interceptors. The Poles called this deployment 
a ``potted plant.'' Presumably, this was done to attempt to mitigate 
Russian concerns.
    a. What is the damage down to our alliances when we make such 
silly-looking deployments?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. What should the future of missile defense look like?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. President Obama said in 2001 that ``I don't agree with 
a missile defense system.'' In 2008, as a candidate, he stated, ``I 
will cut tens of billions of dollars in wasteful spending. I will cut 
investments in unproven missile defense systems.'' Has he implemented 
these political ideologies? How would you describe the impacts of these 
campaign speeches on our national defense?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. In 2009, President Obama slashed our deployment of GBIs 
from 44 to 30 and cut our GMD budget in half, and terminated kill 
vehicle modernization programs like the MKV.
    a. Is it any wonder our only national missile defense system has 
encountered difficulty?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. You served in the previous administration. It has been 
suggested by some witnesses, including Mr Coyle, that GMD was rushed 
into deployment without adequate testing, etc. Would you care to 
provide the facts as you know them?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. Some on the Left say we need to make concessions on 
U.S. missile defense or they fear we won't be able to obtain further 
nuclear reductions. Would you care to comment on whether that is true 
and if so, what recommendations would you offer the subcommittee?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. The administration is refusing to brief this committee, 
including its chairman, on the facts of its proposals to Russia to make 
agreements on our missile defense deployments.
    a. Do you believe the administration owes it to the people's 
representatives in Congress to keep it informed on these matters?
    b. What should the Congress do if the administration continues to 
hide these matters from it? Would you support efforts to fence or limit 
funding until Congress' oversight responsibility is respected?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. It has been reported that Ukraine has asked for the 
deployment of a PATRIOT battery to defend its territory. Is there any 
good reason not to deploy it?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. A week prior to this hearing, this subcommittee held a 
hearing on Russia's violation of the INF treaty.
    a. What are the implications of the administration's refusal to 
provide that annually required report and to finally, years overdue, 
confirm that Russia is in violation of that treaty? What do our allies 
take away from this meekness? How about Russia and Putin?
    b. How should the U.S. and our NATO and Asian allies respond?
    c. Is further arms control possible when one party to treaties 
decides it does not have to comply with them?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. What should Congress prioritize in terms of future 
investments to our missile defense system?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. In 2010, Vice President Biden offered that one of the 
reasons the Senate should ratify the New START treaty was to strengthen 
the hand of then President Medvedev versus Mr. Putin? Did that theory 
work out any better for us that any of the Vice President's other 
foreign policy recommendations in his almost 40-year Federal Government 
experience?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. Russian nuclear doctrine, according to Russian press 
reports, envisions the use of nuclear weapons in a conventional 
conflict. Can the U.S. or its allies afford not to defend itself from 
such a escalatory use of nuclear weapons?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Rogers. You have mentioned several times the report by the 
National Academy of Sciences. Do you endorse its recommendation that 
the U.S. develop and deploy an East Coast site?
    Mr. Coyle. The National Academy committee emphasized that an East 
Coast site should not be built unless and until several other actions 
were completed first. These are the development of a new two-stage 
booster for the GMD interceptor, and a new larger and more capable kill 
vehicle. The Committee also pointed out that the Missile Defense Agency 
does not have the sensors required to support an East Coast site, and 
without which an East Coast site would be unable to achieve its 
intended purpose. I agree with the Committee.
    Mr. Rogers. What is your assessment of the success of the Iron Dome 
system deployed by Israel? How has your assessment shifted, if at all, 
during the recent Hamas-instigated violence in Gaza?
    Mr. Coyle. The successes that Iron Dome reportedly has had in 
battle are so far more evidence of the possibilities of Iron Dome than 
a demonstration of an operationally effective system. As we saw with 
Patriot in the first Gulf War, it is very difficult to get information 
in battle with real ``ground truth''. During my time in the Pentagon I 
saw this also in military exercises that were not instrumented. 
However, when military exercises were instrumented a very different 
picture emerged as to what actually had happened. Accordingly I am 
skeptical of the claims of 90 or 95% effectiveness made for Iron Dome. 
News reports show that Iron Dome often misses, and Prime Minister 
Netanyahu reported this also on ``Meet the Press.'' From these reports 
it appears the Israeli civil defense system deserves at least as much 
credit for saving lives as Iron Dome, if not more. Reports from the 
recent violence in Gaza reinforce these conclusions.
    From the publicly available evidence, it appears that Iron Dome is 
not working nearly as well as what is being claimed. Considering the 
millions of dollars that the Congress has authorized for Iron Dome, the 
Congress should request data on the performance of Iron Dome from 
Israel. This data could be provided to an appropriate U.S. national 
laboratory that has the in-house technical expertise to analyze it. 
Without such data there is no way to know if the system is working at 
the high levels of performance claimed.
    Mr. Rogers. You have suggested that the threat data has changed and 
Iran is now not expected to be able to flight test an ICBM in 2015.
    a. Are you aware of the comments of Gen Flynn, ``as stated by the 
chairman in his opening statement where he talked about our assessment 
being in the 2015 timeframe, you know, given--given the development 
that we see that's accurate; so by about 2015.''
    b. Have you read the classified appendix to the 2014 Iran Mil Power 
Rept? Well, I have. You should be careful about referring to the 
conclusions of a report when you have not seen them, sir. People who do 
that run the risk of looking uninformed and foolish.
    Mr. Coyle. a. Yes, I am familiar with the Senate Armed Services 
Committee hearing held on February 11, 2014, in which General Flynn 
made that comment. However, General Flynn misspoke. It was not Chairman 
Levin who brought up Iranian missile capabilities in his opening 
statement, it was Ranking Member Inhofe.
    b. No, I have not read the classified appendix. In my testimony I 
was not referring to the conclusions in that report. I was making my 
own assessment.
    Mr. Rogers. The administration is refusing to brief this committee, 
including its chairman, on the facts of its proposals to Russia to make 
agreements on our missile defense deployments.
    a. Do you believe the administration owes it to the people's 
representatives in Congress to keep it informed on these matters?
    b. What should the Congress do if the administration continues to 
hide these matters from it? Would you support efforts to fence or limit 
funding until Congress' oversight responsibility is respected?
    Mr. Coyle. a. Yes.
    b. The Congress should be informed when in the course of 
negotiations the administration believes it can reach an agreement 
which both parties are likely to honor. The Congress always has the 
authority to express its opinions with respect to funding for executive 
branch activities but needs to be thoughtful and prudent about 
establishing precedents that might impact future international 
negotiations. In the instant case, no, I would not support efforts to 
fence or limit funding as such efforts would be counterproductive.
    Mr. Rogers. It has been reported that Ukraine has asked for the 
deployment of a PATRIOT battery to defend its territory. Is there any 
good reason not to deploy it?
    Mr. Coyle. A single PATRIOT battery could not defend the Ukraine.
    Mr. Rogers. In 2010, Vice President Biden offered that one of the 
reasons the Senate should ratify the New START treaty was to strengthen 
the hand of then President Medvedev versus Mr. Putin? Did that theory 
work out any better for us that any of the Vice President's other 
foreign policy recommendations in his almost 40-year Federal Government 
experience?
    Mr. Coyle. The New START Treaty was ratified in the U.S. Senate by 
a vote of 71 to 26 with 13 Republican Senators voting for it. America's 
NATO allies also strongly supported the treaty. In Russia President 
Medvedev introduced the treaty for consideration by the Duma, and 
signed the ratification resolution passed unanimously by the Russian 
Federal Assembly, demonstrating a strong hand throughout.
    Mr. Rogers. Russian nuclear doctrine, according to Russian press 
reports, envisions the use of nuclear weapons in a conventional 
conflict. Can the U.S. or its allies afford not to defend itself from 
such a escalatory use of nuclear weapons?
    Mr. Coyle. During the Cold War, the United States had an analogous 
nuclear doctrine to counter what were seen at the time as superior 
Soviet conventional forces if the Soviet Union were to attack West 
Germany through the Fulda Gap. This included atomic demolition mines, 
the Davy Crockett recoilless rifle for firing small nuclear 
projectiles, and A-10 ground attack aircraft. Then as now missile 
defenses are not capable of defending against such battlefield tactical 
nuclear weapons systems.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. What was the cost of phase 1 and phase 2 of Strategic 
Defense Initiative (SDI)?
    What would the cost be of a system that could defend against 
Chinese and Russian warheads today?
    Ambassador Woolsey. I don't know.
    a. I don't know.
    Mr. Cooper. What was the cost of phase 1 and phase 2 of Strategic 
Defense Initiative (SDI)?
    What would the cost be of a system that could defend against 
Chinese and Russian warheads today?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Cooper. What was the cost of phase 1 and phase 2 of Strategic 
Defense Initiative (SDI)?
    Mr. Coyle. According to James A. Abrahamson and Henry F. Cooper, 
about $30 billion were spent on SDI between 1985 and 1993 when it was 
cancelled. See ``What Did We Get for Our $30-Billion Investment in SDI/
BMD? September 1993.
    Cost estimates for the Strategic Defense Initiative vary widely. In 
a 1987 paper the Heritage Foundation wrote, ``While it is unlikely that 
SDI will be as cheap as the 40 billion claimed by some SDI backers, the 
price tag probably will be in the range of $115 billion to $120 billion 
spread out over ten years.''
    Other estimates are much higher, up to $1 trillion attributed to 
former Secretary of Defense Harold Brown. See Heritage Backgrounder 
#607, Strategic Defense: ``How Much Will It Really Cost?'' October 2, 
1987
    Mr. Cooper. What would the cost be of a system that could defend 
against Chinese and Russian warheads today?
    Mr. Coyle. A complete system has never been designed or costed. A 
1982 Defense Department report said that a system of space-based 
lasers, not including all the associated systems for detection, 
coordination, and command and control that a complete SDI system would 
need to have, might cost up to $500 billion (see ``Strategic Defense 
and Anti-Satellite Weapons,'' Hearing before the Senate Committee on 
Foreign Relations, April 25,1984, p. 67).
    Mr. Cooper. What are your views on the value and feasibility of 
boost-phase missile defense?
    Mr. Coyle. I agree with the conclusion of the Defense Science Board 
report of September 2011 that because the timelines for boost-phase 
missile defense are so short, early intercept is not itself ``a useful 
objective for missile defense in general or for any particular missile 
defense system.'' See Defense Science Board Task Force Report on 
``Science and Technology Issues of Early Intercept Ballistic Missile 
Defense Feasibility,'' September 2011.
    Mr. Cooper. Do you agree with the National Academy of Sciences 
conclusion that the ``DOD should not invest any more money or resources 
in systems for boost-phase missile defense'' and that ``boost-phase 
defense is not practical or cost effective under real world conditions 
for the foreseeable future''?
    Mr. Coyle. For all practical purposes, yes. The NRC committee 
wrote, ``All boost-phase intercept (BPI) systems suffer from severe 
reach-versus-time-available constraints.'' There are specialized 
systems that might work in the boost phase against relatively small 
country such as North Korea. But those systems would not be effective 
against larger countries such as Iran, Russia or China.
    Mr. Cooper. Why was the multiple kill vehicle program canceled?
    Mr. Coyle. Defense Secretary Robert Gates made the decision to 
cancel the Multiple Kill Vehicle in the spring of 2009. According to 
the GAO, ``MDA terminated the Multiple Kill Vehicle element because of 
feasibility issues raised about this technology, which was still in its 
early stages of development, as well as a decision to refocus MDA's 
resources on new technologies aimed at early intercept of ballistic 
missiles.'' See GAO-10-311.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. In 2009, just 5 years ago, the Nuclear Posture 
Review Commission, supported the conclusion that ``For more than a 
decade the development of U.S. ballistic missile defenses has been 
guided by the principles of (1) protecting against limited strikes 
while (2) taking into account the legitimate concerns of Russia and 
China about strategic stability.'' Do you now disagree with this 
conclusion? Did you agree at the time?
    Ambassador Woolsey. I disagree with the proposition that these 
should be guiding principles, but I acknowledge that five years ago and 
today these principles influence many and in fact provide the 
underlying assumptions of much of our government's actions with regard 
to BMD programs.
    Mr. Garamendi. What kind of missile defense system(s) would be 
needed and would be feasible to counter Russian and Chinese nuclear 
weapons?
    Ambassador Woolsey. Space-based boost phase.
    Mr. Garamendi. What actions might China and Russia take in response 
to a U.S. missile defense against their capabilities? Would it affect 
the number and type of their offensive systems? What are the cost of 
offensive versus defense systems? Would Russia or China be more likely 
to perceive the need to strike first?
    Ambassador Woolsey. a. More emphasis on both offense and defense--
blaming U.S. for the size of their programs.
    b. Probably little.
    c. I don't know.
    d. It would depend highly on the circumstances.
    Mr. Garamendi. What kind of missile defense system(s) would be 
needed and would be feasible to counter Russian and Chinese nuclear 
weapons?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Garamendi. What might the impacts to strategic stability be of 
expanding missile defense systems to counter Russian and Chinese 
warheads? Why would this action not result in an arms race?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Garamendi. What actions might China and Russia take in response 
to a U.S. missile defense against their capabilities? Would it affect 
the number and type of their offensive systems? What are the cost of 
offensive versus defense systems? Would Russia or China be more likely 
to perceive the need to strike first?
    Ambassador Joseph. [The information was not available at the time 
of printing.]
    Mr. Garamendi. What might the impacts to strategic stability be of 
expanding missile defense systems to counter Russian and Chinese 
warheads? Why would this action not result in an arms race?
    Mr. Coyle. Expanded missile defense systems to counter Russian and 
Chinese ICBMs would be strategically destabilizing because--if Russia 
and China believed those systems were effective--those nations would 
need to respond to counter what they would see as a new threat. Their 
responses could include new tactical and strategic forces, perhaps even 
more attacking missiles to overcome those new U.S. defenses, perhaps 
extensive deployment of cruise missiles against which our ballistic 
missile defense systems are useless, or perhaps deployment of large 
numbers of troops in regions that are currently stable and peaceful. 
Then our missile defenses would have upset the strategic balance and 
provoked new military responses from Russia and China.
    Of course, under such conditions, Russia would certainly not agree 
to further reductions in their strategic nuclear arsenals, as the U.S. 
and Russia have been doing under START, the Strategic Offensive 
Reductions Treaty, and New START. Russia might consider aggressive new 
U.S. missile defense programs as justification to withdraw from New 
START and other agreements that have significantly reduced the threat 
from nuclear weapons.
    Mr. Garamendi. What actions might China and Russia take in response 
to a U.S. missile defense against their capabilities? Would it affect 
the number and type of their offensive systems? What are the cost of 
offensive versus defense systems? Would Russia or China be more likely 
to perceive the need to strike first?
    Mr. Coyle. China and Russia might launch new offensive missile 
programs to overwhelm new U.S. missile defenses against their 
capabilities. China and Russia also might initiate new military actions 
in its regions against which U.S. missile defenses would be useless. 
For example, they might choose to increase their land-, sea-, or air-
based offensive systems and to deploy those systems in new regions.
    With respect to the cost of offensive versus defensive systems, 
during the Reagan years, Paul Nitze, the highly regarded scholar and 
statesman, presented three criteria that any missile defense system 
must meet before being considered for deployment. Nitze's criteria were 
formally adopted as National Security Directive No. 172 on May 30, 
1985.
    The Nitze criteria were:
    1. The system should be effective;
    2. Be able to survive against direct attack; and
    3. Be cost effective at the margin--that is, be less costly to 
increase your defense than it is for your opponent to increase their 
offense against it.
    So far U.S. missile defenses do not meet the Nitze criteria.
    By definition, First Strike is a preemptive surprise attack using 
overwhelming force. A missile defense system capable of continental 
coverage and also of defending against most or all attacking ICBMs, is 
considered by nuclear strategy analysts as enabling First Strike 
because it would allow for a nuclear strike to be launched with reduced 
fear of retaliatory destruction. No such missile defense system exists, 
but if the U.S. had such a system China and Russia would worry about 
the U.S. being the one to strike first. Similarly, if Russia or China 
had such a system, America would worry about Russia or China striking 
first.

                                  [all]
                                  
</pre></body></html>
